AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN
RURAL DOMESTIC VIOLENCE, DATING VIOLENCE,
 SEXUAL ASSAULT, AND STALKING ASSISTANCE
              PROGRAM GRANT
 AWARDED TO THE ARIZONA ASSOCIATION OF
        COMMUNITY HEALTH CENTERS
             PHOENIX, ARIZONA


           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


       Audit Report Number GR-60-11-002
                  October 2010
    AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN
 RURAL DOMESTIC VIOLENCE, DATING VIOLENCE, SEXUAL
 ASSAULT, AND STALKING ASSISTANCE PROGRAM GRANT
     AWARDED TO THE ARIZONA ASSOCIATION OF
            COMMUNITY HEALTH CENTERS
                 PHOENIX, ARIZONA

                        EXECUTIVE SUMMARY


      The Office of the Inspector General, Audit Division, has completed an
audit of the Rural Domestic Violence, Dating Violence, Sexual Assault, and
Stalking Assistance Program (Rural Program) Grant No. 2007-WR-AX-0001
in the amount of $1,472,700 (including one supplement) awarded by the
Office on Violence Against Women (OVW) to the Arizona Association of
Community Health Centers (AACHC).

       The primary purpose of the Rural Program is to enhance the safety of
child, youth, and adult victims of domestic violence, dating violence; sexual
assault; and stalking by supporting projects uniquely designed to address
and prevent these crimes in rural jurisdictions. Rural Program grant funds
are used to support programs that: (1) identify, assess, and appropriately
respond to child, youth, and adult victims of domestic violence, dating
violence, sexual assault, and stalking in rural communities by encouraging
collaboration among domestic violence, dating violence, sexual assault, and
stalking victim service providers; law enforcement agencies; prosecutors;
courts; other criminal justice service providers; human and community
service providers; educational institutions; and health care providers;
(2) establish and expand nonprofit, nongovernmental, state, tribal,
territorial, and local government victim services in rural communities to
child, youth, and adult victims; and (3) increase the safety and well-being of
women and children in rural communities by dealing directly and
immediately with domestic violence, dating violence, sexual assault, and
stalking occurring in rural communities; and creating and implementing
strategies to increase awareness and prevent domestic violence, dating
violence, sexual assault, and stalking.

       The OVW, a component of the U.S. Department of Justice, provides
national leadership in developing the nation's capacity to reduce violence
against women through the implementation of the Violence Against Women
Act (VAWA). Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. Currently, the OVW administers two formula
grant programs and 17 discretionary grant programs, which were
established under the VAWA and subsequent legislation. Since its inception,
the OVW has awarded nearly $4 billion in grants and cooperative
agreements, and has launched a multifaceted approach to implementing the
VAWA. By forging state, local, and tribal partnerships among police,
prosecutors, victim advocates, health care providers, faith leaders, and
others, the OVW grant programs help provide victims with the protection
and services they need to pursue safe and healthy lives, while
simultaneously enabling communities to hold offenders accountable for their
violence.

       In addition to overseeing 19 federal grant programs, the OVW often
undertakes a number of special initiatives in response to areas of special
need, dedicating resources to develop enhancements in areas requiring
particular attention or in communities facing particularly acute challenges.
The OVW special initiatives include, but are not limited to, the Judicial
Oversight Demonstration Initiative, the President's Family Justice Center
Initiative, the Safety for Indian Women from Sexual Assault Offenders
Demonstration Initiative, and the National Protocol for Sexual Assault
Forensic Exams. These special initiatives allow the OVW to explore different
innovations in the violence against women field and share knowledge that
can be replicated nationwide.

      The AACHC is the Primary Care Association (PCA) for the State of
Arizona. All states have one designated PCA in order to advance both the
expansion of Federally Qualified Health Centers (FQHC) and advocate for the
health care interests of the medically underserved and uninsured. As a
result, the AACHC has many programs to assist member community health
centers and the disadvantaged populations they serve. According to the
AACHC, the AACHC assists health centers in accelerating eligibility
determination by providing training and technical assistance regarding the
Health-e Arizona web-based eligibility portal. Also, the community
development program assists rural communities and the AACHC’s existing
membership in creating or expanding medical services to underserved areas
in order to create more access to health care.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and indirect costs; (4) budget


                                    - ii –
management and control; (5) matching; (6) property management;
(7) program income; (8) financial and progress reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of subrecipients and contractors. We determined that
matching costs, indirect costs, program income, and monitoring of
contractors were not applicable to this grant.

     As shown in the exhibit below, the AACHC was awarded a total of
$1,472,700 to implement the grant program.

  EXHIBIT 1. RURAL PROGRAM GRANT TO THE ARIZONA
             ASSOCIATION OF COMMUNITY HEALTH CENTERS
                                               AWARD
       GRANT AWARD         AWARD DATE                       AWARD AMOUNT
                                              END DATE
      2007-WR-AX-0001       09/13/2007        09/30/2009    $    897,700
        Supplement 1        09/25/2009        09/30/2011          575,000
                                                   Total:    $ 1,472,700
  Source: OJP Grants Management System (GMS)

      We examined the AACHC’s accounting records, financial and progress
reports, and operating policies and procedures, and found:

  •   Individual instances where drawdowns exceeded grant expenditures
      for that drawdown period. However, cumulatively, grant expenditures
      exceeded drawdowns.

  •   During transaction testing, with the exception of one transaction
      totaling $24,336, we found that the transactions reviewed were
      generally properly authorized, classified, supported, and charged to
      the grant.

  •   Payroll and fringe costs that were not supported by time recorded on
      timesheets, resulting in unsupported costs of $1,221.

  •   Financial Status Reports and Federal Financial Reports were not
      accurate when compared to accounting records. Also, AACHC has
      implemented a policy stating that all invoices must be received no
      later than the 15th of the following month. However, this policy was
      implemented in March 2010.

  •   The AACHC needs to improve procedures used to verify the
      information compiled from subrecipients for Progress Reports in order
      to ensure accurate Progress Reports.


                                    - iii –
  •   The AACHC needs to improve monitoring of subrecipients in order to
      ensure that subrecipient audit reports are received and communicated
      with the AACHC and that subrecipients’ financial operations, records,
      systems, and procedures are properly monitored.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                   - iv –
                                TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1
     Background .......................................................................... 2
     Our Audit Approach ............................................................... 4
FINDINGS AND RECOMMENDATIONS........................................ 6
     Internal Control Environment ................................................. 6
          Single Audit.................................................................... 6
          Site Visit ........................................................................ 7
          Financial Management System .......................................... 8
     Drawdowns .......................................................................... 8
     Budget Management and Control ...........................................10
     Grant Expenditures ..............................................................10
          Direct and Subrecipient Costs ..........................................10
          Personnel Costs .............................................................11
     Reports ..............................................................................12
          Financial Reports ...........................................................13
          Categorical Assistance Progress Reports ...........................14
     Program Performance and Accomplishments ...........................17
     Monitoring Subrecipients.......................................................19
     Recommendations ...............................................................20
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY .... 21
APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .. 23
APPENDIX III - DETAILED QUESTIONED COSTS ..................... 24
APPENDIX IV - ARIZONA ASSOCIATION OF COMMUNITY
               HEALTH CENTERS RESPONSE TO THE
               DRAFT REPORT .............................................. 25
APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
               COMMENTS ON ARIZONA ASSOCIATION OF
               COMMUNITY HEALTH CENTERS RESPONSE
               TO THE DRAFT REPORT .................................. 30
APPENDIX VI - OFFICE ON VIOLENCE AGAINST WOMEN
               RESPONSE TO THE DRAFT REPORT ................ 33
APPENDIX VII - ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT ............... 36
    AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN
 RURAL DOMESTIC VIOLENCE, DATING VIOLENCE, SEXUAL
 ASSAULT, AND STALKING ASSISTANCE PROGRAM GRANT
     AWARDED TO THE ARIZONA ASSOCIATION OF
            COMMUNITY HEALTH CENTERS
                 PHOENIX, ARIZONA

                            INTRODUCTION


      The Office of the Inspector General, Audit Division, has completed an
audit of the Rural Domestic Violence, Dating Violence, Sexual Assault, and
Stalking Assistance Program (Rural Program) Grant No. 2007-WR-AX-0001
in the amount of $1,472,700 (including one supplement) awarded by the
Office on Violence Against Women (OVW) to the Arizona Association of
Community Health Centers (AACHC).

       The primary purpose of the Rural Program is to enhance the safety of
child, youth, and adult victims of domestic violence, dating violence, sexual
assault, and stalking by supporting projects uniquely designed to address
and prevent these crimes in rural jurisdictions. Rural Program grant funds
are used to support programs that: (1) identify, assess, and appropriately
respond to child, youth, and adult victims of domestic violence, dating
violence, sexual assault, and stalking in rural communities by encouraging
collaboration among domestic violence, dating violence, sexual assault, and
stalking victim service providers; law enforcement agencies; prosecutors;
courts; other criminal justice service providers; human and community
service providers; educational institutions; and health care providers;
(2) establish and expand nonprofit, nongovernmental, state, tribal,
territorial, and local government victim services in rural communities to
child, youth, and adult victims; and (3) increase the safety and well-being of
women and children in rural communities by dealing directly and
immediately with domestic violence, dating violence, sexual assault, and
stalking occurring in rural communities; and creating and implementing
strategies to increase awareness and prevent domestic violence, dating
violence, sexual assault, and stalking.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and indirect costs; (4) budget
management and control; (5) matching; (6) property management;
(7) program income; (8) financial and progress reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of subrecipients and contractors. We determined that
matching costs, indirect costs, program income, and monitoring of
contractors were not applicable to this grant. As shown in Exhibit 1, the
AACHC was awarded a total of $1,472,700 to implement the grant program.

   EXHIBIT 1. RURAL PROGRAM GRANT TO THE ARIZONA
              ASSOCIATION OF COMMUNITY HEALTH CENTERS
                                             AWARD
        GRANT AWARD         AWARD DATE                     AWARD AMOUNT
                                            END DATE
     2007-WR-AX-0001        09/13/2007     09/30/2009      $     897,700
        Supplement 1        09/25/2009     09/30/2011           575,000
                                                Total:      $ 1,472,700
   Source: OJP Grants Management System (GMS)

Background

       The OVW, a component of the U.S. Department of Justice, provides
national leadership in developing the nation's capacity to reduce violence
against women through the implementation of the Violence Against Women
Act (VAWA). Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. Currently, the OVW administers two formula
grant programs and 17 discretionary grant programs, which were
established under the VAWA and subsequent legislation. Since its inception,
the OVW has awarded nearly $4 billion in grants and cooperative
agreements, and has launched a multifaceted approach to implementing the
VAWA. By forging state, local, and tribal partnerships among police,
prosecutors, victim advocates, health care providers, faith leaders, and
others, the OVW grant programs help provide victims with the protection
and services they need to pursue safe and healthy lives, while
simultaneously enabling communities to hold offenders accountable for their
violence.

      In addition to overseeing 19 federal grant programs, the OVW often
undertakes a number of special initiatives in response to areas of special
need, dedicating resources to develop enhancements in areas requiring
particular attention or in communities facing particularly acute challenges.
The OVW special initiatives include, but are not limited to, the Judicial


                                     -2-
Oversight Demonstration Initiative, the President's Family Justice Center
Initiative, the Safety for Indian Women from Sexual Assault Offenders
Demonstration Initiative, and the National Protocol for Sexual Assault
Forensic Exams. These special initiatives allow the OVW to explore different
innovations in the violence against women field and share knowledge that
can be replicated nationwide.

      The AACHC is the Primary Care Association (PCA) for the State of
Arizona. All states have one designated PCA in order to advance both the
expansion of Federally Qualified Health Centers (FQHC) and advocate for the
health care interests of the medically underserved and uninsured.

       As a result, the AACHC has many programs to assist member
community health centers and the disadvantaged populations they serve.
According to the AACHC, the AACHC assists health centers in accelerating
eligibility determination by providing training and technical assistance
regarding the Health-e Arizona web-based eligibility portal. Also, the
community development program assists rural communities and the
AACHC’s existing membership in creating or expanding medical services to
underserved areas in order to create more access to health care.

       Through Grant No. 2007-WR-AX-0001, the AACHC, in partnership with
the Arizona Coalition Against Domestic Violence (AZCADV), five of Arizona’s
FQHC sites now employ full-time domestic violence medical advocates
(advocates) responsible for coordinating an institutionalized, culturally and
linguistically sensitive, clinic-wide response to domestic violence, including
appropriate screening, community education, and provision of advocacy
services to meet patient needs, as well as participation in or development of
a coordinated community response to domestic violence. Advocates also
provide crisis counseling, ongoing counseling, and assistance with specific
legal and medical needs. The five FQHC sites that employ an advocate for
the Rural Program are:

         •   Desert Senita Community Health Center,
         •   North Country HealthCare (Holbrook Site),
         •   North Country HealthCare (St. Johns Site),
         •   Mariposa Community Health Center, and
         •   Chiricahua Community Health Center.

      According to the AACHC, the medical advocates work closely with law
enforcement to ensure that victims’ legal rights are not compromised
regardless of economic or immigration status. The Rural Program is working
to ensure that the advocates receive training on the VAWA and the
protections it provides for battered immigrant women. Each medical


                                     -3-
advocate is responsible for implementing a comprehensive, multidisciplinary
education program for medical providers, law enforcement, social service
providers, and community residents. The medical advocates work closely
with local health workers, where available, on community outreach to
educate on the dynamics of domestic violence and the resources and
protections available for victims.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents.

      In conducting our audit, we performed sample testing in four areas,
which were drawdowns, grant expenditures, and payroll. In addition, we
reviewed the timeliness and accuracy of financial reports and progress
reports, evaluated performance to grant objectives, evaluated the grantee’s
monitoring of subrecipients, and reviewed the internal controls of the
financial management system.

      We examined the AACHC’s accounting records, financial and progress
reports, and operating policies and procedures, and found:

  •   Individual instances where drawdowns exceeded grant expenditures
      for that drawdown period. However, cumulatively, grant expenditures
      exceeded drawdowns.

  •   During transaction testing, with the exception of one transaction
      totaling $24,336, we found that the transactions reviewed were
      generally properly authorized, classified, supported, and charged to
      the grant.

  •   Payroll and fringe costs that were not supported by time recorded on
      timesheets, resulting in unsupported costs of $1,221.

  •   Financial Status Reports and Federal Financial Reports were not
      accurate when compared to accounting records. AACHC has
      implemented a policy stating that all invoices must be received no
      later than the 15th of the following month. However, this policy was
      not implemented until March 2010.




                                    -4-
  •   The AACHC needs to improve procedures used to verify the
      information compiled from subrecipients for Progress Reports in order
      to ensure accurate Progress Reports.

  •   The AACHC needs to improve monitoring of subrecipients in order to
      ensure that subrecipient audit reports are received and communicated
      with the AACHC and that subrecipients’ financial operations, records,
      systems, and procedures are properly monitored.

These items are discussed in detail in the Findings and Recommendations
section of the report. Our audit objectives, scope, and methodology are
discussed in Appendix I.




                                    -5-
               FINDINGS AND RECOMMENDATIONS


     We found that the transactions reviewed were generally properly
     authorized, classified, supported, and charged to the grant.
     However, we identified individual instances where drawdowns
     exceeded grant expenditures for that drawdown period. During
     testing of payroll costs, we identified unsupported costs totaling
     $1,221. We determined that Financial Status Reports (FSR),
     Federal Financial Reports (FFR), and Progress Reports were
     generally submitted on a timely basis. However, these financial
     reports were not always accurate and the procedures used to
     verify the information contained in Progress Reports need to be
     improved in order to ensure accurate reports. We determined
     that the AACHC needs to improve monitoring of subrecipients in
     order to ensure that subrecipient audit reports are received and
     communicated with the AACHC and that subrecipients’ financial
     operations, records, systems, and procedures are properly
     monitored. Overall, we did not identify any indications that
     AACHC is not on track to accomplish the goals and objectives of
     the grant

Internal Control Environment

      We reviewed the AACHC’s financial management system, policies and
procedures, Single Audit Reports, and Site Visit Reports to assess the
AACHC’s risk of non-compliance to laws, regulations, guidelines, and terms
and conditions of the grant. We also interviewed AACHC officials regarding
payroll, purchasing, and accounts payable to further assess risk.

Single Audit

      According to OMB Circular A-133, non-federal entities that expend
$300,000 ($500,000 for fiscal years ending after December 31, 2003) or
more in a year in federal awards shall have a single or program-specific
audit conducted for that year. As shown in the Schedule of Expenditures in
Federal Reports section of each Single Audit Report, the AACHC expended
$1,197,498 in federal funds in Fiscal Year (FY) ending March 31, 2008,
($185,216 in Rural Program funds) and $1,477,913 in federal
funds ($392,049 Rural Program funds) in FY ending March 31, 2009.
Therefore, we determined that the AACHC was required under OMB Circular
A-133 to have a Single Audit performed.




                                    -6-
       The Single Audit Report for FY ending March 31, 2008, had one finding
relating to its financial statements; in particular, several revenue accounts
were misclassified and grant receivables were not recorded when earned as
required by generally accepted accounting principles. This finding did not
relate to grants from the Department of Justice (DOJ). For the Single Audit
Report for FY ending March 31, 2009, one finding related to its financial
statements: the beginning net assets did not match the prior year's end
balance (this was due to a change in accounting software). We found that
the AACHC’s response to the audit report findings were included in the
Single Audit Reports for FY ending March 31, 2008, and March 31, 2009.
 We also determined that there were no findings or recommendations that
related to DOJ grant funds or crosscutting issues to all federal awards
awarded to the AACHC.

Site Visit

      We determined that as of the date of our fieldwork, one site visit was
conducted by the Office of Justice Programs (OJP), Office of the Chief
Financial Officer (OCFO) on February 18, 2010. After reviewing the results
from the site visit report, one recommendation was made which concerned
Grant No. 2007-WR-AX-0001:

      An analysis of the financial activity for the grant reviewed
      disclosed that the cumulative expenditures reported by the
      Arizona Association of Community Health Centers (Association)
      on the most recent Federal Financial Report (FFR) did not
      reconcile to their accounting system. The Association reported
      total Federal expenditures of $754,330 as of December 31, 2009
      on the FFR. However, the Association's accounting records
      indicate expenditures of $825,795.

      The Association should review their accounting records and
      supporting documentation to determine the actual allowable
      cumulative expenditures for this grant. Based on the results of
      this review, the next FFR submitted for this grant should be
      adjusted to reflect the cumulative costs incurred.

     We obtained a copy of AACHC's response regarding the
recommendation made in the site visit report and determined that the
response adequately addressed the recommendation.




                                     -7-
Financial Management System

      In addition to reviewing previous single audits and site visit reports,
we also reviewed the AACHC’s financial management system to assess risk.
AACHC officials included the procedures that provided for segregation of
duties, transaction traceability, and system security. Based on our review of
the AACHC’s policies and procedures and interviews with AACHC personnel,
we did not identify any internal control issues that would affect compliance
with applicable requirements of the Rural Program.

Drawdowns

      AACHC officials stated that drawdowns were based on reimbursements
of actual expenditures in the accounting records. An AACHC official
explained that grant funds are electronically deposited into the AACHC’s
main bank account and that no separate account has been made to house
funds for the grant. We also obtained the bank statements from months
containing the last four drawdowns made for Grant No. 2007-WR-AX-0001
and determined that drawdowns are deposited via electronic funds transfer
to the AACHC’s main bank account maintained by an AACHC official.

       According to the OJP Financial Guide, grant recipient organizations
should request funds based upon immediate disbursement/reimbursement
requirements. Recipients should time their drawdown requests to ensure
that Federal cash on hand is the minimum needed for reimbursements to be
made immediately or within 10 days. As shown in Exhibit 2, we also
reviewed the accounting records and compared expenditures to the actual
drawdowns and found five instances where the amount drawn down was
significantly larger than the grant expenditures for that period.




                                    -8-
EXHIBIT 2. DRAWDOWNS VERSUS ACCOUNTING RECORDS 1
                                                                                       CUMULATIVE
                            GRANT         DIFFERENCE                                   DIFFERENCE
                         EXPENDITURES      BETWEEN                                      BETWEEN
                              PER           AMOUNT                     CUMULATIVE        AMOUNT
              AMOUNT     ACCOUNTING       DRAWN PER                   EXPENDITURES     DRAWN PER
  DATE OF     DRAWN      RECORDS FOR       OJP AND       CUMULATIVE          PER        OJP AND
 DRAWDOWN      PER       DRAWDOWN         ACCOUNTING     DRAWDOWNS    ACCOUNTING       ACCOUNTING
  PER OJP      OJP         PERIOD          RECORDS         PER OJP     RECORDS          RECORDS

10/24/2007    $ 37,404       $    3,823    $ (33,581)      $ 37,404      $     3,823    $(33,581)

11/01/2007      37,404            3,791     (33,614)         74,808            7,614     (67,195)

12/03/2007      18,702           17,617      (1,085) 2       93,510           25,230     (68,280)

04/01/2008      92,725        160,541          67,815       186,236          185,771        (465)

08/13/2008      76,043        120,810          44,767       262,279          306,581       44,303

12/10/2008    136,848         120,800       (16,048)        399,127          427,382       28,255

04/01/2009    137,547         141,289           3,370       536,673          568,671       31,998

07/17/2009    218,064            90,275    (127,789)        754,737          658,948     (95,791)

02/16/2010      90,883        178,501          88,128       845,621          837,447      (8,174)

03/23/2010      49,091           83,317        34,226       894,712          920,764       26,052

03/24/2010      46,159                -     (46,159)        940,871          920,764     (20,107)
Source: Office of Justice Programs and AACHC

          AACHC officials explained that the AACHC has drawn down funds on a
    reimbursement basis based on the expenses for a certain period. However,
    the AACHC has had some trouble in the past in obtaining invoices from the
    FQHC sites in a timely manner and as a result, the AACHC drew down funds
    for a period and subsequently received invoices that must be recorded in
    that period. AACHC officials also explained that this practice has caused
    inconsistencies that have been adjusted on the next drawdown. As part
    of the AACHC's monitoring visit in February 2010, this issue was noted and
    the AACHC has implemented a policy stating that all invoices must be
    received no later than the 15th of the following month. However, this policy
    was not implemented until March 2010.



          1
               Differences in total amounts are due to rounding. The sum of individual numbers
    prior to rounding may differ from the sum of the individual numbers rounded.
          2
               We do not take exception to the drawdown made on December 3, 2007. We
    determined that the expenditures made 10 days after the drawdown were larger than the
    difference noted in exhibit 2.


                                               -9-
      An AACHC official also stated that the first few drawdowns were done
by former employees who were working under the guidelines for grants that
did not involve the DOJ. This meant that they were drawing down a portion
of the grant based on a time period and not based on actual expenses. This
resulted in funding being recorded as deferred income and recognized as the
expenses were incurred. An AACHC official also explained that current staff,
who have received proper training from the DOJ, have adjusted this practice
and all subsequent drawdowns have been on a reimbursement basis.

       Based on the results of our comparison of actual drawdowns to
accounting records, we determined that AACHC officials exceeded minimum
cash on hand as required in the OJP Financial Guide. However, AACHC
officials also provided additional expenditures from the month following the
most recent drawdown which total $20,415.14. Therefore, cumulative
expenditures (including 10 days after the last drawdown) exceed the
cumulative drawdowns for Grant No. 2007-WR-AX-0001. Since cumulative
expenditures exceed cumulative drawdowns and AACHC officials have
implemented a policy to ensure timely invoices from the FQHC sites, we do
not take exception regarding the AACHC exceeding minimum cash on hand
for all drawdown periods.

Budget Management and Control

      As noted in Exhibit 1, the AACHC received one award for $897,700,
with a supplemental award of $575,000. We compared the approved
budgets for this award to the actual expenditures as shown in the AACHC’s
accounting system. We determined that grant expenditures did not exceed
the approved grant budget in any budget category.

Grant Expenditures

Direct and Subrecipient Costs

       We reviewed the general ledger account designated for grant funds
and selected a judgmental sample of 41 transactions, totaling $261,053.
During testing, we examined one transaction which, AACHC officials
explained was a reimbursement to the Mariposa Community Health Center
totaling $24,336 for a grant that the AACHC had received from the Arizona
Attorney General’s Office that did not concern the Rural Program. AACHC
officials also explained that this transaction was erroneously included in the
accounting records for the Rural Program grant and that they planned on
recording a reversing entry to remove the transaction from the Rural
Program accounting records and make another entry, placing it in the
accounting records for the correct grant. AACHC officials also explained that


                                    - 10 -
they were not aware of this transaction until the sample of transactions was
provided by OIG auditors. AACHC personnel also explained that since their
annual audit report has not been released, they have been instructed not to
make any adjusting entries until the annual report is issued. After issuance
of the draft report, AACHC officials provided documentation indicating that a
reversing entry was made to remove the transaction from the Rural Program
accounting records. Therefore, we no longer take exception to this matter.

     After the discrepancy noted above, OIG auditors compared
reimbursements made to each subrecipient to the amount to be reimbursed
based on the grant budgets and Memorandums of Understanding (MOU)
between the AACHC and grant subrecipients and we did not find any
material discrepancies between amounts the AACHC reimbursed and the
amounts determined in the MOUs. With exception to the transaction noted
above, we found that the transactions reviewed were generally properly
authorized, classified, supported, and charged to the grant.

Personnel Costs

      According to the grant budget, the AACHC was approved $216,595 in
personnel costs and $43,319 in fringe benefits. We reviewed supporting
documentation for two pay periods of personnel and fringe benefit costs
charged to the grant. For each employee paid with grant funds, we
determined: (1) if the positions appeared reasonable with the stated intent
of the program, (2) whether their salaries were within a reasonable range,
and (3) if the positions were consistent with grant budgets. In addition, we
compared the supporting documentation for payroll and fringe benefits to
what was budgeted for both, to determine if the positions were properly paid
as budgeted, and supported.

       We obtained a list of employees paid using grant funds from AACHC
personnel, which included salary and fringe benefit amounts charged to the
grant (for the pay periods selected for testing). We compared the list to the
approved positions in the grant budgets and noted that there were two
people who were specifically mentioned in the budget but were not included
in our listing. There were also two people on the list that were not included
in the grant budget. AACHC officials explained that for the first pay period
that we had selected, they were trying to sort out grant activities. They also
explained that the personnel that were included in the list of employees filled
in for the duties those not included in the list since they were qualified to fill
their duties. We determined that this was reasonable since these AACHC
personnel were performing the same duties for the grant. We determined
that the positions and salaries appeared reasonable and consistent with
grant budgets.


                                      - 11 -
        According to the OJP Financial Guide, where salaries apply to the
execution of two or more grant programs, cost activities, project periods,
and/or overlapping periods, proration of costs to each activity must be made
based on time and/or effort reports. These reports should: reflect an
after-the-fact distribution of the actual activity of each employee; account
for the total activity of each employee; be prepared at least monthly;
coincide with one or more pay periods; and be signed by the employee.
These reports should also be reviewed and approved on a regular basis by a
supervisory official having first-hand knowledge of the work performed. The
approving official should document the review and approval by signing or
initialing each employee’s time and/or effort report.

      We traced costs to timesheets for the two pay periods selected to
verify that labor charges were computed correctly, properly authorized,
accurately recorded, and properly allocated to the grant. For the second pay
period that we had selected, we did not find any discrepancies during our
testing.

       However, we found that for the first pay period we had selected, there
wasn't space on AACHC employees’ timesheets to show time charged to the
Rural Program. AACHC officials explained that the time charged to the grant
was labeled as 'WHCC' which was for a different grant program named the
“Rural Frontier Women's Health Coordinating Center Program.” AACHC
officials provided documentation showing that the WHCC program had been
closed prior to the beginning of the Rural Program. Therefore, we did not
take exception regarding this matter.

       Also, we found that for the first pay period we had selected, for five of
the six employees paid using grant funds, the percentage of time spent on
the grant on AACHC timesheets did not support the percentage of salary that
AACHC employees were being paid using grant funds. AACHC officials
explained that the amounts that were charged to the grant were in
compliance to the grant budget. The payroll system is updated immediately
anytime a funding source change is made. But, the time sheets are updated
less frequently and thus the amount of time spent on the ‘WHCC’ was
reflected on the timesheets. These costs were $1,091 in unsupported wages
and $130 in unsupported fringe benefits, totaling $1,221. Details regarding
these costs can be found in Appendix III.

Reports

     We reviewed the FSRs, FFRs, and Categorical Assistance Progress
Reports, and found the FSRs and FFRs were generally submitted in a timely
manner, but were inaccurate. The progress reports were submitted in


                                     - 12 -
timely manner, but we noted that there were areas where the AACHC could
enhance the procedures for verifying information contained in the
Categorical Assistance Progress Reports.

Financial Reports

      For financial reporting prior to October 1, 2009, the OJP Financial
Guide states that FSRs (Form SF-269A) should be submitted online no later
than 45 days after the last day of each quarter. The OJP Financial Guide
also states that effective for the quarter beginning October 1, 2009, instead
of using FSRs, grant recipients must report expenditures online using the
Federal Financial Report Form (Form FFR-425) no later than 30 days after
the end of each calendar quarter. We reviewed a sample of the last four
financial reports submitted (as of the date of our fieldwork) and, as shown in
Exhibit 3 below, two of the four reports sampled were submitted less than
seven days late. We determined that, under the applicable criteria, the FSRs
and FFRs, with minor exceptions, were generally submitted in a timely
manner.

   EXHIBIT 3.       FINANCIAL STATUS REPORT AND FEDERAL
                    FINANCIAL REPORT HISTORY
     REPORT        REPORT PERIOD
      NO.         FROM - TO DATES        DUE DATES    DATE SUBMITTED   DAYS LATE
        7     04/01/2009 - 06/30/2009    08/14/2009     08/20/2009        6
        8     07/01/2009 - 09/30/2009    11/14/2009     11/12/2009        0
        9     10/01/2009 - 12/31/2009    01/30/2010     02/01/2010        2
       10     01/01/2010 - 03/31/2010    04/30/2010     04/28/2010        0
   Source: OJP Grants Management System (GMS)

       We also reviewed the last four financial reports (as of the date of our
fieldwork) for accuracy to grant accounting records. As shown in Exhibit 4,
for all four financial reports selected for testing, expenditures listed in the
AACHC’s accounting records were different from what was reported in the
financial reports for each individual report as well as cumulative totals
included in each report.




                                        - 13 -
EXHIBIT 4. FINANCIAL STATUS REPORT AND FEDERAL FINANCIAL
           REPORT ACCURACY
                                                                                              CUMULATIVE    CUMULATIVE
                                                     GRANT       DIFFERENCE                     GRANT       DIFFERENCE
                                                  EXPENDITURES     BETWEEN     CUMULATIVE    EXPENDITURES     BETWEEN
                                      GRANT           PER         REPORTS &      GRANT           PER         REPORTS &
REPORT       REPORT PERIOD         EXPENDITURES    ACCOUNTING    ACCOUNTING   EXPENDITURES    ACCOUNTING    ACCOUNTING
 N O.       FROM - TO DATES         PER REPORT      RECORDS        RECORDS     PER REPORT      RECORDS        RECORDS
  7      04/01/2009 - 06/30/2009       $218,604       $ 78,205   $(140,400)       $677,547       $649,498    $(28,049)
  8      07/01/2009 - 09/30/2009              0         94,917       94,917        677,547        744,415       66,868
  9      10/01/2009 - 12/31/2009         76,783         77,302         518         754,330        821,716       67,386
  10     01/01/2010 - 03/31/2010        192,525        119,228     (73,297)        946,855        940,944      (5,911)

Source: OJP Grants Management System (GMS) and AACHC

               After speaking with AACHC officials, they stated that they have had
         some trouble getting invoices in a timely manner from their FQHC sites in
         the past. As a result, they have submitted FSRs for a period and
         subsequently received invoices that must be recorded in that period. This
         has caused inconsistency that had to be adjusted on the next financial
         report. As part of their monitoring visit in February 2010, this issue was
         noted and the AACHC has implemented a policy stating that all invoices
         must be received no later than the 15th of the following month. However,
         this policy was not implemented until March 2010.

         Categorical Assistance Progress Reports

               According to the OJP Financial Guide, Categorical Assistance Progress
         Reports are due semiannually on January 30 and July 30 for the life of the
         grant. We selected the last four Progress Reports that were submitted (as of
         the date of our fieldwork) and as shown in Exhibit 5 below, the four progress
         reports that were selected were generally submitted in a timely manner.




                                                        - 14 -
  EXHIBIT 5. CATEGORICAL ASSISTANCE PROGRESS
           REPORT HISTORY
     REPORT          REPORT PERIOD
      NO.           FROM - TO DATES          DUE DATE     DATE SUBMITTED   DAYS LATE
       2        01/01/2008 - 06/30/2008    01/30/2009 3       01/30/2009           0
       3        07/01/2008 - 12/31/2008     01/30/2009        01/31/2009           1
       4        01/01/2009 - 06/30/2009     07/30/2009        07/30/2009           0
       5        07/01/2009 - 12/31/2009     01/30/2009        01/28/2009           0
  Source: OJP Grants Management System (GMS

       According to the OJP Financial Guide, the funding recipient agrees to
collect data appropriate for facilitating reporting requirements established by
Public Law 103-62 for the Government Performance and Results Act. The
funding recipient will ensure that valid and auditable source documentation
is available to support all data collected for each performance measure
specified in the program solicitation.

       We analyzed the accuracy of the Categorical Assistance Progress
Reports by analyzing the process used to obtain and verify information from
the medical advocates of each FQHC site. AACHC officials explained that
each advocate submits quarterly reports on subject matters for progress
reports as well as information addressing activities towards accomplishing
the goals and objectives of the grant. An AACHC official also explained that
the data regarding the activities of each advocate are documented in paper
files that are securely locked away and are not entered into a database
because these services are separate from the medical information which is
usually stored by each community health center.

      According to AACHC Advocate Policies and Procedures, the Project
Director is responsible for overseeing the project, ensuring advocates have
access to the resources needed to do their jobs, and ensuring that reporting
requirements for the project are consistently met. An AACHC official stated
that the following are some of the steps used when reviewing the advocates'
quarterly reports (which are compiled into the Categorical Assistance
Progress Reports).




      3
         OVW officials extended the due date of Progress Report number two to January 30,
2009; because the OVW needed to revise the progress report form in order to reflect
statutory changes made to the Rural Program by the VAWA Reauthorization in 2005 (2007
grants were the first made under the new changes to the Rural Grant Program.)


                                          - 15 -
  1. Do the numbers that are supposed to match, match? For example, do the totals
  for victims served/partially served and totals for people in demographic categories
  match?
  2. Is the number of reported types of victimizations the same or greater than the
  number of victims served or partially served?
  3. When an advocate marks “other” for a particular item, is it a valid use of that
  category or should the items identified in “other” be listed in another category?
  4. If the advocate marks that someone was served or partially served, what would
  they identify as the reasons for that (to determine whether the contact with that
  victim was not categorized properly)?
  5. Were training and education activities categorized appropriately?
  6. Were policies implemented or substantially revised? Or did the health center
  already have policies related to the issues addressed?
  7. Were activities involving coordinated community response and partnership clearly
  captured?
  8. Did the advocate respond adequately to narrative questions or demonstrate
  activity toward reaching program goals and objectives?
  9. If the advocate is not serving a large number of clients, did the advocate focus on
  education, training and a coordinate community response to domestic violence?
  10. Do the numbers reported for various services make sense?
  11. Were calculations performed correctly?
  Source: AACHC

       An AACHC official commented that this list does not encompass every
possible issue they might look at when reviewing the report, but
provides an overview of their process. AACHC officials will review the
reports section by section, noting discrepancies or areas that require
questions and pose those issues to the advocate for response (and usually
revision). At quarterly meetings, AACHC and member Community Health
Centers have talked about what methods advocates can best use to keep
track of their records so that they can ensure they are reporting as
accurately as possible.

       We noted that there are areas where the AACHC could enhance the
procedures for verifying information contained in the Categorical Assistance
Progress Reports from advocates’ quarterly reports. Specifically, we did not
identify procedures in place to verify the accuracy of data that is contained
in the quarterly reports by comparing the quarterly reports to supporting
documentation maintained by the advocates during the process mentioned
above. Based on our evaluation of AACHC officials' processes for verifying
the information contained in Progress Reports, we determined that the
AACHC needs to improve procedures used to verify the information compiled
from subrecipients for Progress Reports in order to ensure accurate Progress
Reports. An AACHC official explained that there could be a potential
problem in regards to confidentiality and that some FQHC sites keep track of
their records electronically through the medical databases and others keep



                                          - 16 -
track manually. However, the AACHC also stated that they should be able to
do so as long as the verification does not involve names of patients.

Program Performance and Accomplishments

      According to the award documentation, the primary purpose of the
Rural Program is to enhance the safety of child, youth, and adult victims of
domestic violence, dating violence, sexual assault, and stalking by
supporting projects uniquely designed to address and prevent these crimes
in rural jurisdictions.

For the original grant, some of the objectives of the Rural Program included:

1. Hire full-time advocates for each Community Health Center
2. Provide health-care provider training and implement 100% of screening for
domestic violence
3. Create a Domestic Violence Advocate’s Guide
4. Coordinate Law Enforcement Training for Community
5. Develop an Outreach Program regarding the impact of witnessing Victims of
Intimate Partner Violence (IPV) on children, overcoming barriers faced by parent
victims of IPV, education about IPV and pregnancy, and ensuring child safety
including mandatory reporting requirements for child abuse
6. Create an Emergency Assistance Fund
7. Provide VAWA protection training (including funds to provide legal assistance)
Source: AACHC

For the supplement to the grant, AACHC officials had the following goals for
the Rural Program:

Goal 1: Strengthen partnerships for safer communities and enhance the
communities’ response to domestic violence.

Goa1 2: Respond to domestic violence in a comprehensive manner through
patient screening, identification, assessment, intervention, documentation,
safety planning, and referral.

       AACHC officials stated that they believe the goals and objectives for
the original grant and the supplement have been achieved or are on track to
be achieved. They also explained that the legal services portion of the grant
took longer to start since only one organization had the resources to provide
these services but they are working on expanding these services. AACHC
officials provided numerous articles, emails, and pamphlets from the
community exhibiting the work in which the AACHC and member FQHC sites
have done regarding the Rural Program. Through the Domestic Violence
Medical Advocacy Program:



                                           - 17 -
      •   In the first six months of 2009:
              o Over 11,600 individuals were screened during their healthcare visits
                  for domestic violence.
              o 135 men and women were assisted by the program advocates, with
                  88 interventions involving children.
              o 157 professionals in a variety of fields were trained on sexual assault,
                  domestic violence, dating violence, stalking, and child sexual abuse,
                  which enabled them to improve their response to victims.
              o Over 2,200 community members received education to increase
                  public awareness of sexual assault, domestic violence, dating
                  violence, stalking, and child sexual abuse.
  Source: AACHC

      In order to obtain a better comprehension of the services provided
through the program and the level of collaboration between the AACHC and
the FQHC sites, we selected 5 of the 7 personnel who worked on the grant
program outside of the AACHC and interviewed them regarding the
collaboration between their FQHC site and the AACHC as well as discuss the
services that they provide under the Rural Program.

       Based on the responses from the advocates, they provide victims
resources and referrals to others within the community based on their
immediate and necessary needs. Also, advocates specifically mentioned that
the emergency funds that they receive from the AACHC are extremely useful
because they can be used immediately to help victims in need instead of
waiting for permission from the AACHC (advocates would later submit what
was spent using emergency funds to AACHC personnel). Advocates will also
collaborate with organizations in the local community, including shelters,
police departments, and hospitals. Advocates also commented that AACHC
officials have been in constant contact assisting them in meeting grant
objectives and that if the AACHC officials cannot provide information
regarding a certain situation, they refer to another organization that would
be able to provide information regarding that situation. Based on the
interviews, we determined that the services provided were consistent with
the grant program goals and objectives and effective in meeting the needs
of end users.

      After reviewing interviews with AACHC officials and Rural Program
Advocates as well as reviewing subrecipient site visit reports we noted
actions regarding training for advocates, outreach to the community, the use
of the emergency assistance fund for advocates, and actions towards
addressing immediate necessary needs of victims. We did not identify any
indications that AACHC is not on track to accomplish the goals and
objectives of the grant.




                                          - 18 -
Monitoring Subrecipients

      According to the 2009 OJP Financial Guide, direct recipients should be
familiar with, and periodically monitor, their subrecipients’ financial
operations, records, systems, and procedures. Particular attention should be
directed to the maintenance of current financial data.

       Also, recipients must ensure that subrecipients have met the
necessary audit requirements contained in the OJP Financial Guide.
Recipients are also responsible for ensuring that subrecipient audit reports
are received and for resolving any audit findings. Known or suspected
violations of any law encountered during audits, including fraud, theft,
embezzlement, forgery, or other serious irregularities, must be
communicated to the recipient. For subrecipients who are not required to
have an audit as stipulated in OMB Circular A-133, the recipient is still
responsible for monitoring the subrecipients’ activities to provide reasonable
assurance that the subrecipient administered Federal awards in compliance
with Federal requirements.

       An AACHC official stated that each of the advocates are managed by
the FQHC site that they work at, not by the AACHC, and that each FQHC is
federally required to have an audit performed annually. An AACHC official
also stated that the AACHC evaluates the subrecipient’s processes and
procedures for administering the MOU and adhering to the terms and
conditions of the grant as part of the site visits that are performed at each
FQHC site once per year. According to AACHC Advocate Policies and
Procedures, the purpose of the site visits is primarily to provide technical
assistance to advocates in the form of guidance, training materials,
educational materials, and other resources. At the site visits, an AACHC
official and the subrecipient’s personnel discuss matters concerning the grant
program. These matters include screening patients for domestic violence,
language barriers with patients, or upcoming outreach events like Domestic
Violence Awareness Month. An AACHC official explained that during site
visits, AACHC officials do not review the subrecipient’s key internal controls
and that an employee, separate from the advocates, from each FQHC site
submits the invoices to the AACHC for reimbursement. An AACHC official
also explained that, in addition to the annual site visits, there were quarterly
meetings and calls from AACHC officials to the advocates regarding their
progress in grant-related activities.

      From notes and documentation from site visits, we noted that there
was no documentation showing that timesheets are reviewed by AACHC
personnel to ensure that timesheets are accurate and the appropriate time is
being charged to the grant. We also noted that even though each FQHC is


                                     - 19 -
federally required to have an audit performed annually, AACHC officials do
not receive or review the report; so AACHC officials would not become aware
of an audit finding unless the FQHC came to the AACHC for assistance. Also,
after examining the MOUs between the AACHC and each FQHC, we noted
that there was no mention of the Single Audit Requirements of OMB Circular
A-133 or any responsibilities on the part of the subrecipient to provide
information regarding Single Audits.

       We believe that, without proper financial monitoring of subrecipients,
instances where an unverified timesheet for subrecipients may go unnoticed,
an erroneous invoice may be reimbursed without being checked, or an audit
finding of material concern would not be brought to the AACHC. AACHC
officials concurred with the issues addressed by OIG auditors. We
recommend that the AACHC implement policies to ensure that subrecipients’
timesheets are reviewed and that subrecipients are required to present their
annual audit report to AACHC officials.

Recommendations

     We recommend that the OVW:

  1. Remedy the $24,336 in unallowable subrecipient costs.

  2. Remedy the $1,221 in unsupported payroll and fringe costs.

  3. Ensure that AACHC officials implement policies regarding submitting
     accurate FFRs.

  4. Ensure that AACHC officials implement policies to ensure that the
     information contained quarterly reports used for the semiannual
     progress reports is supported.

  5. Ensure that AACHC officials implement policies to ensure that
     subrecipients’ timesheets are reviewed and that subrecipients are
     required to present their annual audit report to AACHC officials.




                                    - 20 -
                                                               APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY


      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and indirect costs; (4) budget
management and control; (5) matching; (6) property management;
(7) program income; (8) financial and progress reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of subrecipients and contractors. We determined that
matching costs, indirect costs, program income, and monitoring of
contractors were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of the grant on September 19, 2007, through March 31, 2010. This was
an audit of Rural Domestic Violence, Dating Violence, Sexual Assault, and
Stalking Assistance Program Grant No. 2007-WR-AX-0001 The AACHC
has drawn down a total of $940,871 in drawdowns through March 31,
2010.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents.

      In conducting our audit, we performed sample testing in six areas,
which were drawdowns, grant expenditures, personnel expenditures, FSRs
and FFRs, Progress Reports, and grant employees working outside of the
AACHC. In this effort, we employed a judgmental sampling design to obtain
broad exposure to numerous facets of the grants reviewed, such as dollar
amounts or expenditure category. We identified samples of 12 of 12
drawdowns (which included all drawdowns made as of the date of our
fieldwork), 41 of 862 grant expenditures, 4 of 5 progress reports, 4 of 10
FSRs and FFRs, and 5 of 7 grant-funded personnel who work outside of the


                                   - 21 -
                                                                APPENDIX I


AACHC. It should also be noted that we had originally selected a judgmental
sample of 40 transactions for transaction testing, totaling $253,175. During
transaction testing, we were informed that five of the transactions we had
selected had been reversed out previously and that one transaction was
pending to be reversed. Therefore, we selected six new transactions and
our sample changed to 41 transactions totaling $261,053. This
non-statistical sample design does not allow projection of the test results to
the universes from which the samples were selected.

       In addition, we evaluated performance to grant objectives, and
evaluated the grantee’s monitoring of subrecipients. However, we did not
test the reliability of the financial management system as a whole and
reliance on computer based data was not significant to our objective.




                                    - 22 -
                                                                            APPENDIX II


             SCHEDULE OF DOLLAR-RELATED FINDINGS4
      QUESTIONED COSTS:                                       AMOUNT          PAGE

                                                                  24,336      10

           Unsupported Payroll Costs                               1,091      12

           Unsupported Fringe Costs                                   130     12-13

      Total Questioned Costs:                                  $25,557

      TOTAL DOLLAR-RELATED FINDINGS                            $25,557




       4
          Questioned Costs are monies spent that, at the time of the audit, do not comply
with legal requirements, or are unsupported, unbudgeted, or are unnecessary or
unreasonable. They can be recoverable or nonrecoverable.


                                           - 23 -
                                                  APPENDIX III


          DETAILED QUESTIONED COSTS

  DETAILED UNALLOWABLE SUBRECIPIENT COSTS
       Transaction           DATE           AMOUNT
Mariposa Community Health 11/12/2009            $24,336
          Center
TOTAL UNALLOWABLE SUBRECIPIENT                  $24,336
COSTS:


     DETAILED UNSUPPORTED PAYROLL COSTS
         POSITION                DATE       AMOUNT
   Chief Executive Officer    08/14/2008             $ 61
 Financial Services Director  08/14/2008              233
          Controller          08/14/2008              130
Director of Clinical Programs 08/14/2008              543
 Executive Assistant to the   08/14/2008              125
   Chief Executive Officer
TOTAL UNSUPPORTED PAYROLL:                      $1,091


      DETAILED UNSUPPORTED FRINGE COSTS
          POSITION                DATE      AMOUNT
    Chief Executive Officer    08/14/2008            $5
  Financial Services Director  08/14/2008            43
           Controller          08/14/2008            15
 Director of Clinical Programs 08/14/2008            50
  Executive Assistant to the   08/14/2008            16
    Chief Executive Officer
TOTAL UNSUPPORTED FRINGE COSTS:                   $130




                             - 24 -
                                                                        APPENDIX IV


ARIZONA ASSOCIATION OF COMMUNITY HEALTH CENTERS
          RESPONSE TO THE DRAFT REPORT




                         Official Response to Draft Audit Report
                          Office on Violence Against Women
Rural Domestic Violence, Dating Violence, Sexual Assault, and Stalking Assistance Program
                               Grant # 2007-WR-AX-0001
         Domestic Violence Medical Advocacy Program for Rural Communities




                    Arizona Association of Community Health Centers
                                  September 14, 2010




                                         - 25 -
                                                                               APPENDIX IV

Overview

        This document details the Arizona Association of Community Health Centers’ (AACHC)
official response to the draft audit report in two sections. The first section (titled Changes
Requested) identifies inaccurate information presented in the draft audit report which the
AACHC respectfully requests be edited to accurately reflect the organization and its activities,
programs, and partners. The second section (titled Response to Recommendations) details
actions taken to address the recommendations provided to the Office on Violence Against
Women by the Office of the Inspector General through this draft audit report.

Section I: Changes Requested

        The AACHC respectfully seeks the following changes, listed by page number, to the
draft audit report to clarify details provided regarding the AACHC and its activities, programs,
and partners:

   1) Page ii: The provider network for the uninsured detailed in the last paragraph
      (HealthCare Connect) was created in 2003, and while initially funded by HRSA, the
      HRSA funding went away for this program (as well as Community Access Programs
      across the country) in 2007.
   2) Page ii: AACHC assists health centers in accelerating eligibility determination by
      providing training and technical assistance regarding the Health-e Arizona web-based
      eligibility portal.
   3) Page 3- Please see number one above.
   4) Page 3- In the third paragraph, it should be noted that AACHC, in partnership with
      AzCADV, works with five of Arizona’s FQHC sites; the project includes 4 FQHCs at 5
      sites.
   5) Page 3- North Country Community Health Center should read North Country
      HealthCare
   6) Page 6- In the first paragraph, might you be able to clarify? As it reads now, progress
      reports were noted as inaccurate, but was there any data that was gathered that supports
      that statement or is it assumed to be so because of perceived deficiencies in data
      monitoring? Or is this paragraph referring to inaccurate Financial Reports?
   7) Page 18- The last two bullet points in the chart appeared in a newsletter published by the
      Arizona Coalition Against Domestic Violence (which included an article on our program)
      and are unrelated to our Rural Grant Program. They appear later in the newsletter as
      information on services that AzCADV has provided for the state of Arizona and are not
      provided by nor paid for out of our grant funds. We do not have a hotline.
   8) Page 20- In the second paragraph, in-person quarterly meetings took place in person
      during the first two years of the project. Since supplemental funding was received on
      October 1, 2009, quarterly meetings have taken place on the following dates: December
      14, 2009 (in-person), March 25, 2010 (in-person), June 17, 2010 (via Webex). The next
      meeting is scheduled for September 16, 2010 (in-person). It is noted in the project scope
      of work that some quarterly meetings will be conducted via Webex due to the cost of
      bringing all the advocates to a central location (Phoenix).




                                              - 26 -
                                                                               APPENDIX IV

   9) Page 20- The financial trends analysis was part of a particular project unrelated to the
      Rural Program Grant in which AACHC received HRSA planning grant funds and was
      able to pay an outside company to conduct a financial trends analysis for interested health
      centers as part of that grant project. Ultimately, a number of health centers chose not to
      participate, as they felt their audit information was proprietary and were concerned about
      it being shared with AACHC or other health centers, despite assurances that each health
      center would only receive its own report and an aggregate (which AACHC would receive
      as well), with no individual health center information being shared with another health
      center or AACHC.

AACHC is able to provide additional information on any of the above requests if needed.

Section II: Response to Recommendations

   1. Remedy the $24,336 in unallowable sub-recipient costs.

   As noted in the draft audit report, this charge was erroneously billed to the Rural Program
   Grant when it should have been billed to a grant that the AACHC received from the Arizona
   Attorney General’s Office. AACHC was unable to reverse the transaction until the annual
   Single Audit, which was conducted at the same time as the Rural Program Audit, was
   completed. The annual Single Audit has been completed, and supporting documentation
   demonstrating reversal of this expenditure is attached (Attachments A & B).

   2. Remedy the $1,221 in unsupported payroll and fringe costs.

   As the draft audit report documents, AACHC did not revise timesheets in a timely fashion in
   the past. As a result, the timesheets for the pay period documented did not accurately reflect
   time spent on the grant project. However, as the report also notes, the time for which
   personnel was paid was for grant-related activities and was in compliance with the approved
   grant budget. In reviewing subsequent payroll files, the draft audit report notes that
   timesheets were accurate, demonstrating that this issue, once identified, was resolved.

   3. Ensure that AACHC officials implement policies regarding submitting accurate FFRs.

   As noted in response to recommendations made at the Financial Monitoring Site Visit
   which took place February 18, 2010, procedures have been implemented to ensure that
   all expenditures are reported in a timely manner in the future. As a result, there should
   be no further adjustments in subsequent Federal Financial Reports (FFRs). The
   discrepancy in amount reported versus amount spent is likely a result of sub-recipients
   submitting invoices for monthly reimbursement on varying schedules. This resulted in
   funds not having been expended at the time the reporting took place but later being
   booked to the appropriate months within the accounting system as the invoices were
   received (per Generally Accepted Accounting Principles). In order to rectify this
   discrepancy, the Association has implemented a policy that sub-recipients must submit
   invoices no later than 15 days following the end of the month. Health Centers have
   been notified of this policy via written communication, and this information has been



                                             - 27 -
                                                                           APPENDIX IV

added to the program policy and procedure guide that each participating health center
CEO, advocate, and advocate supervisor has received. Additionally, the Project
Director requested each health center to identify a financial contact to whom she can
send a reminder regarding the invoices. On the fifth of each month, the Project
Director now sends a reminder email regarding the invoices to ensure timely submittal.

4. Ensure that AACHC officials implement policies to ensure that the information contained
   in quarterly reports used for the semi-annual progress reports are supported with
   adequate supporting documentation.

The AACHC is committed to complying with grant requirements and respectfully asks for
further clarification and recommendations regarding this issue. Additional methods of
gathering information to assess accuracy of reporting have included:
1) Monthly Conference Calls and Quarterly Meetings where challenging cases are discussed
as a group (without identifying information)
2) Site visits- where cases may be discussed with the Project Director and AzCADV
Director of Domestic Violence Services (without identifying information)
3) Phone calls to the Project Director on an ongoing basis regarding needs of clients,
resources available, use of emergency safety funds and other challenges.
Comparing these discussions to information provided in the advocate quarterly reports is
another method of assessing completeness and accuracy.

The Project Director and advocates have received training on maintaining confidentiality,
and of particular concern in these small, rural communities is that redacting a name may not
be enough to eliminate identifying information if anyone else sees the documentation the
advocate is providing to the Project Director. Specific guidance as to how this
recommendation could be actualized without compromising client confidentiality in any way
would be helpful.

5. Ensure that AACHC officials implement policies to ensure that subrecipients’ timesheets
   are reviewed and that subrecipients are required to present their annual audit report to
   AACHC officials.

As the AACHC, each FQHC is required (according to OMB Circular A-133) to undergo a
Single Audit annually. As noted in the draft audit report, the AACHC has previously
requested audit reports from member health centers. Health Centers have been hesitant to
submit what they see as proprietary information. However, their annual audit reports are
reviewed by their individual boards of directors as well as by the federal government. As
any other organization undergoing an audit, health centers are required to respond to
recommendations or take corrective action on issues found as a result of their audit. Failure
to do so can result in elimination of federal funding from the Health Resources and Services
Administration (HRSA), which establishes their existence as an FQHC, and dissolution of
their organization.

As the domestic violence advocates are employees of the health centers and are held
accountable to individual health center policies, not only is it incumbent upon their



                                          - 28 -
                                                                            APPENDIX IV

supervisors to review their time sheets for accuracy, but timesheet/payroll review should be
occurring during their annual audit as well. All advocates work solely on this project and do
not spend additional time on other projects. Currently, health centers submit invoices to
AACHC to cover a portion of advocate salary, fringe benefits, and overhead. Additionally,
per program policies, the only other invoices which health centers might submit to the
Project Director would be for travel expenses outlined as part of the project sub-recipient
agreements or reimbursement for emergency safety assistance to clients. Again, these
additional expenses must be reviewed and approved by the Project Director, as detailed in the
Program Policy and Procedure Manual.

The AACHC reserves the right to question any invoices received and has done so with health
centers in the past if invoices received seemed unreasonable or inappropriate. Because the
Project Director maintains daily contact with the advocates, she is able to assess whether trip
expenses are reasonable and allowable because she is aware of details of each advocate’s
travel and has been involved in the planning of that travel.

Again, the AACHC is committed to complying with grant requirements and respectfully asks
for further clarification and specific recommendations regarding this issue.




                                          - 29 -
                                                                   APPENDIX V


  OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
  COMMENTS ON ARIZONA ASSOCIATION OF COMMUNITY
   HEALTH CENTERS RESPONSE TO THE DRAFT REPORT


       The Office of the Inspector General (OIG), Audit Division, provided a draft
of this audit report to the Office on Violence against Women (OVW) and to the
Arizona Association of Community Health Centers (AACHC). AACHC included
comments on the report regarding details of the AACHC and its activities,
programs, and partners. We have addressed these comments and have
made necessary changes to the final report to address these comments. In
addition, the OIG, Audit Division, has identified issues in AACHC’s response
to our draft report (see Appendix IV) that we believe should be addressed.
As a result, we are providing the following comments on AACHC’s response
to the draft report.

      AACHC’s response to recommendation 2 on page 27 of this report
states:

      As the draft audit report documents, AACHC did not revise
      timesheets in a timely fashion in the past. As a result, the
      timesheets for the pay period documented did not accurately
      reflect time spent on the grant project. However, as the report
      also notes, the time for which personnel was paid was for
      grant-related activities and was in compliance with the approved
      grant budget. In reviewing subsequent payroll files, the draft
      audit report notes that timesheets were accurate, demonstrating
      that this issue, once identified, was resolved.

        According to the OJP Financial Guide, where salaries apply to the
execution of two or more grant programs, cost activities, project periods,
and/or overlapping periods, proration of costs to each activity must be made
based on time and/or effort reports. These reports should: reflect an
after-the-fact distribution of the actual activity of each employee; account
for the total activity of each employee; be prepared at least monthly;
coincide with one or more pay periods; and be signed by the employee.
These reports should also be reviewed and approved on a regular basis by a
supervisory official having first-hand knowledge of the work performed. The
approving official should document the review and approval by signing or
initialing each employee’s time and/or effort report.

      During our analysis, we found that the percentage of time spent on the
grant on AACHC timesheets did not support the percentage of salary that
AACHC employees were being paid using grant funds. Therefore, even


                                      - 30 -
                                                                 APPENDIX V


though the rates used in timesheets was later remedied, the percentage of
time spent on the grant on AACHC timesheets still does not support the
percentage of salary that AACHC employees were being paid using grant
funds. As a result, we still consider the $1,091 in wages and $130 in fringe
benefits unsupported.

      AACHC’s response to recommendation 4 on page 28 of this report
states:

      The AACHC is committed to complying with grant requirements
      and respectfully asks for further clarification and
      recommendations regarding this issue. Additional methods of
      gathering information to assess accuracy of reporting have
      included:
      4) Monthly Conference Calls and Quarterly Meetings where
         challenging cases are discussed as a group (without
         identifying information)
      5) Site visits- where cases may be discussed with the Project
         Director and AzCADV Director of Domestic Violence Services
         (without identifying information)
      6) Phone calls to the Project Director on an ongoing basis
         regarding needs of clients, resources available, use of
         emergency safety funds and other challenges.
      Comparing these discussions to information provided in the
      advocate quarterly reports is another method of assessing
      completeness and accuracy.

      The Project Director and advocates have received training on
      maintaining confidentiality, and of particular concern in these
      small, rural communities is that redacting a name may not be
      enough to eliminate identifying information if anyone else sees
      the documentation the advocate is providing to the Project
      Director. Specific guidance as to how this recommendation
      could be actualized without compromising client confidentiality in
      any way would be helpful.

       According to the OJP Financial Guide, the funding recipient agrees to
collect data appropriate for facilitating reporting requirements established by
Public Law 103-62 for the Government Performance and Results Act. The
funding recipient will ensure that valid and auditable source documentation
is available to support all data collected for each performance measure
specified in the program solicitation.




                                     - 31 -
                                                                 APPENDIX V


       As stated by the AACHC, there are already activities used to monitor
the progress of subrecipients. However, we noted that there are no steps
taken to verify the data used in Progress Reports. We acknowledge that
maintaining confidentiality should be a high concern. However, we believe
that the verification of data would not require documentation of the data
itself or for the patient information to leave where it is securely stored, and
the only documentation that would be necessary would be notations that the
verification occurred.




                                     - 32 -
                                                                             APPENDIX VI


               OFFICE ON VIOLENCE AGAINST WOMEN
                 RESPONSE TO THE DRAFT REPORT




                                                                         September 28, 2010


MEMORANDUM


TO:                   David Sheeren
                      Regional Audit Manager
                      Denver Regional Audit Office

FROM:                Susan B. Carbon
              Director
                     Office on Violence Against Women

                      Rodney Samuels
                      Audit Liaison
                      Office on Violence Against Women

SUBJECT:              Response to the Draft Audit Report – Rural Domestic Violence, Sexual
                      Assault, and Stalking Assistance Program Grant Awarded to Arizona
                      Association of Community Health Centers, Phoenix, Arizona (AACHC)


This memorandum is in response to your correspondence dated August 26, 2010 transmitting the
above draft audit report for Arizona Association of Community Health Centers (AACHC). We
consider the subject report resolved and request written acceptance of this action from your
office.

The report contains five recommendations and $25,557 in unallowable and unsupported costs.
The Office on Violence Against Women (OVW) agrees with the recommendations and is
committed to working with the grantee to address each item and bring them to a close as quickly
as possible. The following is an analysis of the audit recommendations:


   1) Remedy the $24,336 in unallowable subrecipient costs.

       OVW agrees with this recommendation. We will coordinate with AACHC to obtain the
       necessary support to remedy the $24,336 in unallowable subrecipient costs.



                                            - 33 -
                                                                            APPENDIX VI




2) Remedy the $1,221 in unsupported payroll and fringe costs.

     OVW agrees with this recommendation. We will coordinate with AACHC to obtain          the
     necessary support to remedy the $1,221 in unsupported payroll and fringe costs.

3)    Ensure that AACHC Officials implement policies regarding submitting accurate
     FFRs.

     OVW agrees with this recommendation. We will coordinate with AACHC to obtain a
     copy of the newly implemented policies written to ensure that accurate FFRs are
     submitted.

4)    Ensure that AACHC Officials implement policies to ensure that the information
     contained quarterly reports used for the semi-annual progress reports are
     supported with adequate supporting documentation.

     OVW agrees with this recommendation. We will coordinate with AACHC to obtain a
     copy of the newly implemented policies written to ensure that the information contained
     quarterly reports used for the semi-annual progress reports are supported with adequate
     documentation.

5)    Ensure that AACHC Officials implement policies to ensure that subrecipients’
     timesheets are reviewed and that subrecipients are required to present their
     annual audit report to AACHC Officials.

     OVW agrees with this recommendation. We will coordinate with AACHC to obtain a
     copy of the newly implemented policies written to ensure that subrecipients’ timesheets
     are reviewed and that subrecipients are required to present their annual audit report to
     AACHC Officials.




                                           - 34 -
                                                                            APPENDIX VI




We appreciate the opportunity to review and comment on the draft report. We will continue to
work with AACHC to address the recommendations. If you have any questions or require
additional information, please contact Rodney Samuels of my staff at
(202) 514-9820.

cc:    Richard Theis
       Assistance Director
       Audit Liaison Group
       Justice Management Division

       Kotora Padgett
       Accounting Officer
       Office on Violence Against Women

       Kara Moller
       Program Specialist
       Office on Violence Against Women

       Jessica Yanow
       AACHC

       Luke Payne
       Finance
       AACHC




                                            - 35 -
                                                                APPENDIX VII


     OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
      ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                     CLOSE THE REPORT


      Pursuant to OMB Circular A-50 Revised, Audit Follow-up, responses to
audit reports are defined as “written comments by agency officials indicating
agreement or disagreement on reported findings and recommendations.
Comments indicating agreement on final reports shall include planned
corrective actions and, where appropriate, dates for achieving actions.
Comments indicating disagreement shall explain fully the reasons for
disagreement. Where disagreement is based on interpretation of law,
regulation, or the authority of officials to take or not to take action, the
response must include the legal basis.”

1.     Closed. After reviewing documentation submitted by AACHC officials
       after transmittal of the draft report, we determined that the $24,336
       in unallowable subrecipient costs has been remedied.

2.     Resolved. This recommendation can be closed when we receive
       documentation that OVW has remedied the $1,221 in unsupported
       payroll and fringe costs.

3.     Resolved. This recommendation can be closed when we receive
       documentation from OVW showing that the AACHC has implemented
       the policies regarding the timely submittal of subrecipient invoices
       mentioned in Appendix IV of this report.

4.     Resolved. This recommendation can be closed when we receive
       documentation from OVW showing that the AACHC has implemented
       policies to ensure that the information contained in the quarterly
       reports used for the semiannual progress reports is supported with
       adequate supporting documentation.

5.     Resolved. This recommendation can be closed when we receive
       documentation from OVW showing that the AACHC has implemented
       policies requiring subrecipients to present their annual audit reports to
       the AACHC.




                                      - 36 -
